U.S. Department of Justice
Office of the Inspector General




Report to Congress on Implementation
of Section 1001 of the USA PATRIOT Act
    (as required by Section 1001(3) of Public Law 107-56)




                                         April 2013
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the 22nd since enactment of the legislation in October 2001, summarizes the
OIG’s Section 1001-related activities from July 1, 2012, through December 31,
2012.


I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Marshals
Service (USMS), and the U.S. Attorneys’ Offices. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division conducts independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division investigates allegations of bribery, fraud,
           abuse, civil rights violations, and violations of other criminal laws and


       1  The OIG has authority to investigate allegations of criminal wrongdoing or
administrative misconduct by any Department employee, except for “allegations of misconduct
involving Department attorneys, investigators, or law enforcement personnel, where the
allegations relate to the exercise of the authority of an attorney to investigate, litigate, or
provide legal advice." 5 U.S.C. App. 3 § 8E(b)(2)-(3).



Office of the Inspector General, U.S. Department of Justice                         Page 1
          administrative procedures that govern Department employees,
          contractors, and grantees.

      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 440 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 6 Audit Division regional offices located
throughout the country.


II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

             The Inspector General of the Department of Justice shall
             designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description


Office of the Inspector General, U.S. Department of Justice                Page 2
                    of the use of funds appropriations used to carry out
                    this subsection.


III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Section 1001 requires the OIG to “review information and receive
complaints alleging abuses of civil rights and civil liberties by employees and
officials of the Department of Justice.”

      The OIG’s Investigations Division manages the OIG’s Section 1001
investigative responsibilities. The two units with primary responsibility for
coordinating these activities are Operations Branch I and Operations Branch II,
each of which is directed by a Special Agent in Charge and two Assistant
Special Agents in Charge (ASAC). 2 In addition, these units are supported by
Investigative Specialists and other staff assigned to the Investigative Support
Branch, who divide their time between Section 1001 and other responsibilities.

       The Investigations Division receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. Upon receipt, Division
ASACs review the complaints and assign an initial disposition to each matter,
and Investigative Specialists enter the complaints alleging a violation within the
investigative jurisdiction of the OIG or another federal agency into an OIG
database. Serious civil rights and civil liberties allegations relating to actions
of DOJ employees or contractors are typically assigned to an OIG Investigations
Division field office, where special agents conduct investigations of criminal
violations and administrative misconduct. 3 Occasionally, complaints are
assigned to the OIG’s Oversight and Review Division for investigation.

       Given the number of complaints OIG receives compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the


        2 These units also coordinate the OIG’s review of allegations of misconduct by

Department employees: the Operations Branch I has primary responsibility for matters
involving the BOP, USMS, and the U.S. Attorney’s Offices; the Operations Branch II has
primary responsibility for matters involving the FBI, DEA, and ATF.
       3   The OIG can pursue an allegation either criminally or administratively. Many OIG
investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not result in prosecution. When this occurs, the OIG may continue the
investigation and treat the matter as a case for potential administrative discipline. The OIG’s
ability to handle matters criminally or administratively helps to ensure that a matter can be
pursued administratively even if a prosecutor declines to prosecute a matter.



Office of the Inspector General, U.S. Department of Justice                        Page 3
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints the OIG receives involve matters outside its
jurisdiction, and when those matters identify a specific issue for investigation,
the OIG forwards them to the appropriate investigative entity. For example,
complaints of mistreatment by airport security staff or by the Border Patrol are
sent to the Department of Homeland Security OIG. The DOJ OIG also has
forwarded complaints to the Offices of Inspectors General at the Department of
Defense, the Department of Veterans Affairs, and the Department of Labor.
Allegations related to the authority of a DOJ attorney to litigate, investigate, or
provide legal advice are referred to the DOJ Office of Professional
Responsibility. Allegations related solely to state and local law enforcement or
government officials that raise a federal civil rights concern are forwarded to
the DOJ Civil Rights Division.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the OIG discusses
the complaint with the DOJ Civil Rights Division for possible prosecution. In
some cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

   A. Complaints Processed During This Reporting Period

      Between July 1, 2012 and December 31, 2012, the period covered by this
report, the OIG processed 442 new civil rights or civil liberties complaints. 4

      Of these complaints, 399 did not fall within the OIG’s jurisdiction or did
not warrant further investigation. The vast majority (365) of these complaints
involved allegations against agencies or entities outside the DOJ, including
other federal agencies, local governments, or private businesses. When
possible, the OIG referred those complaints to the appropriate entity or advised
complainants of the entity with jurisdiction over their allegations. Some
complaints (34) raised allegations that were not suitable for investigation by the
OIG and could not be referred to another agency for investigation, generally
because the complaints failed to identify a subject or agency.

      The OIG found that the remaining 43 of the 442 complaints it received
involved DOJ employees or DOJ components and included allegations that
required further review. The OIG determined that 37 of these complaints


         4 These complaints include all matters in which the complainant made any mention of

a civil rights or civil liberties violation, even if the allegation was not within the OIG’s
jurisdiction.



Office of the Inspector General, U.S. Department of Justice                       Page 4
raised management issues generally unrelated to the OIG’s Section 1001 duties
and, consequently, referred these complaints to DOJ components for
appropriate handling. Examples of complaints in this category included
allegations by federal prisoners about the general prison conditions and by
others that the FBI did not initiate an investigation into particular allegations.

       The OIG identified a total of 6 complaints warranting further
investigation to determine whether Section 1001-related abuses occurred. The
OIG investigated 1 of the complaints and referred the other 5 complaints to the
BOP for further investigation. The next section of this report describes the
substance of these 6 complaints. Notably, none of the complaints processed
during this reporting period specifically alleged misconduct by DOJ employees
relating to the use of authorities contained in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components, including allegations
requiring further review:


      Complaints processed                               442

      Complaints not within OIG’s
      jurisdiction or not warranting further review      399

      Total complaints within OIG’s
      jurisdiction warranting review                      43

      Management issues referred to
      DOJ components for handling                         37

      Possible Section 1001 complaints
      warranting investigation by OIG                         1

      Possible Section 1001 complaints
      warranting investigation by DOJ components              5


   B. Section 1001 Complaints

      1. Investigations Opened During This Reporting Period

      During this reporting period, the OIG opened one Section 1001-related
investigation and referred 5 Section 1001-related complaints to the BOP for
investigation, all of which remain pending. The OIG has requested that, upon
completion of the investigation of each referred complaint, BOP provide the OIG
a copy of its investigative report.



Office of the Inspector General, U.S. Department of Justice             Page 5
         a. OIG Investigation

            •   A BOP inmate alleged that two correctional officers harassed
                inmates who were practicing religious observances during
                Ramadan. The inmate alleged that the correctional officers
                approached him and other Muslim inmates and threw their
                religious meals into the garbage while uttering racial slurs. The
                inmate alleged that one of the correctional officers has racist
                attitudes towards black and Muslim inmates and has openly
                expressed them.

         b. Continuing BOP Investigations

            •   A BOP inmate alleged that the inmate’s correctional institution
                discriminates against Muslim inmates. The inmate alleged that
                the institution does not employ a Muslim chaplain and has not
                attempted to find one; that Muslim inmates are prohibited from
                studying together, from studying outside of their assigned cells,
                and from praying at work; and that other religious groups are
                permitted to receive religious materials from volunteers and
                guests but Muslim inmates are not. The inmate further alleged
                that Muslims face a hostile environment at the institution and
                noted that other inmates have previously filed similar
                complaints alleging harassment, retaliation, and discrimination
                against the same institution.

            •   A BOP inmate alleged that a correctional officer was passing out
                Ramadan meals without bread. When several inmates asked
                the correctional officer to call food service for the bread, he
                responded by expressing unwillingness to accommodate the
                religious needs of the Muslim inmates. The inmate also alleged
                that the correctional officer refused to give him his mail.

            •   A BOP inmate alleged that a correctional officer exhibits a
                pattern of racist and discriminatory behavior toward him and
                other Muslim inmates by harassing them, “trashing” their cells,
                and repeatedly singling them out for cell searches, yet treats
                non-Muslim inmates with respect.

            •   Three BOP inmates alleged that two correctional officers acted
                unprofessionally while they were escorting the inmates from
                religious services to their housing units during Ramadan.
                Allegedly, one of the correctional officers made comments about
                killing Muslims when he was overseas, and the other
                correctional officer compared Muslims to dogs and stated that
                he hated dogs.


Office of the Inspector General, U.S. Department of Justice             Page 6
            •   A BOP inmate alleged that a correctional officer insulted him
                and his religion by making harsh and derogatory statements to
                him about his headdress, deliberately mispronouncing the
                name “Allah,” and boasting of military action taken by the
                United States in the Middle East.

      2. Pending Investigations Opened During Previous Reporting
         Periods

         a. Complaints Referred to BOP

            The OIG referred the following five complaints to the BOP for
            investigation during a prior reporting period; the investigations
            remain open. The OIG has requested that BOP provide a copy of
            its investigative report upon completion of the investigation of each
            referred complaint.

            •   A BOP inmate alleged that after he filed a grievance against a
                BOP chaplain for allegedly interfering with his right to practice
                the Islamic faith, the chaplain then accused the inmate of
                “starting a terrorist cell,” resulting in the inmate being placed in
                segregated housing. The inmate also alleged that after filing
                another grievance alleging retaliation, he was again sent to
                segregated housing. Additionally, the inmate alleged that after
                an internal investigation at the prison determined that the
                allegations against him were false, the BOP took no action
                against the staff and instead transferred the inmate twice,
                leaving him thousands of miles from his family.

            •   A BOP inmate alleged that a correctional officer used a racial
                slur, confiscated his kufi for no reason, and referred to the kufi
                as a “terrorist cap.” The inmate further alleged that two other
                correctional officers witnessed the correctional officer threaten
                and approach the inmate in an aggressive manner.

            •   A BOP inmate alleged that a correctional officer used profanity
                towards inmates and treated black Muslim inmates harshly
                because of their religious beliefs. The inmate also alleged that
                BOP staff intentionally destroyed his written correspondence.

            •   An inmate alleged that a BOP correctional officer harassed
                Muslim inmates and interfered with their attendance at
                religious services. The inmate further alleged that the
                correctional officer made hostile and harassing sexual




Office of the Inspector General, U.S. Department of Justice               Page 7
                comments to the inmates and touched them in an inappropriate
                manner.

            •   A Muslim inmate alleged that: his religious diet was suspended;
                he was placed in “racial segregation” because of lies fabricated
                by the BOP chaplain and his assistant; BOP staff tampered with
                his legal mail and obstructed calls to his attorneys; BOP staff
                censured his participation during Islamic services and studies;
                the BOP inappropriately classified him as an international
                terrorist; and a BOP lieutenant told him that the prison staff
                hated him.

      3. Previously Opened Investigations Closed During This Reporting
         Period

      The OIG completed its investigations of one Section 1001-related matter
      opened in a prior period. Additionally, the BOP completed investigations
      of 3 Section 1001-related complaints previously referred by the OIG in
      prior periods. Upon completion of the investigation of each referred
      complaint, the BOP provided the OIG a copy of its investigative report.

         a. Closed OIG Investigation

            •   The OIG investigated allegations by three BOP inmates that
                Muslim inmates housed in a BOP Communications
                Management Unit (CMU) were subjected to discriminatory and
                retaliatory measures by BOP staff because of their faith and
                “ethnic identity.” Each inmate submitted an identical letter
                citing 26 examples of discrimination and retaliatory treatment.
                When interviewed by the OIG, the inmate who wrote the letter
                stated that he had not personally experienced many of the
                allegations of mistreatment but listed them because other
                Muslim inmates had elected him as a spokesperson. The other
                two inmates stated that they submitted the letter because they
                agreed with the first inmate’s allegations. The two correctional
                officers named in the complaint denied the allegations of
                discrimination and retaliation. The OIG’s investigation found
                no evidence to support the allegations, and after reviewing BOP
                and institutional policy, the OIG determined that the
                correctional officers had acted within the scope of their
                responsibility. The OIG provided its report of investigation to
                the BOP.




Office of the Inspector General, U.S. Department of Justice            Page 8
         b. Closed BOP Investigations

            •   A Muslim inmate alleged that he feared that BOP correctional
                officers would pay someone to kill or assault him or that his
                cellmate would assault him because staff told the cellmate he
                was not being moved because of the complainant. The inmate
                further alleged that several complaints related to his torture
                have been ignored; that a correctional officer deliberately served
                him pork; and that he was denied medical treatment for nerve
                damage to his hand as a result of misapplication of restraints.
                The inmate also alleged that a correctional officer used a racial
                slur. BOP attempted to interview the inmate regarding his
                allegations, but he refused. Because the inmate had several
                different cellmates, BOP was unable to determine which former
                cellmate was allegedly encouraged to assault him. The two
                correctional officers identified in the complaint denied the
                allegations against them. The correctional officer who allegedly
                intentionally served the inmate a pork meal recalled
                inadvertently giving the inmate the wrong meal because the
                meals were not properly marked, but she told BOP that she
                immediately corrected the error. The second correctional officer
                told BOP that he had no recollection of the incidents described
                in the complaint. He further told BOP that he did not threaten
                or assault the inmate, use a racial slur, or write a false incident
                report. BOP’s review of the inmate’s disciplinary history found
                that he had been found guilty of the incident report in question
                and had been appropriately sanctioned. BOP’s investigation
                revealed no evidence to support the inmate’s other allegations.
                BOP concluded that the inmate’s allegations were
                unsubstantiated and closed its investigation.

            •   A BOP inmate alleged that a recreation specialist threatened
                and harassed Muslim inmates by threatening to write incident
                reports on any inmate found praying in the recreation area of
                the prison, but did not take the same actions with regard to
                inmates of other faiths. The inmate also alleged that the
                specialist made comments such as “I don’t like fake Muslims” in
                the presence of other inmates. The BOP interviewed the
                recreation specialist, who stated that he counseled the inmates
                several times prior to issuing them an incident report, and that
                he explained to the inmates that they could not participate in a
                prayer group larger than two while in the recreation yard. He
                also told the BOP that he has treated inmates of all faiths
                similarly, and that he never used the term “fake Muslim.”
                BOP’s investigation found that the institution’s Recreation
                Department Rules, which are posted in the recreation area,


Office of the Inspector General, U.S. Department of Justice              Page 9
                state that (1) religious ceremony is not allowed in recreation,
                and that (2) religious prayer group (three or more) activity is
                prohibited in all recreation areas. Additionally, BOP found that
                none of the inmates interviewed as witnesses heard the
                recreational specialist use the term “fake Muslim.” BOP
                concluded there was insufficient evidence to substantiate the
                allegations and closed its investigation.

            •   A BOP inmate alleged that he was placed in solitary
                confinement in a special housing unit (SHU) during the
                investigation of an unspecified incident between another
                Muslim inmate and a correctional officer. According to the
                inmate, he was placed in the SHU because he was a Muslim,
                and he has been held there for additional time as retaliation for
                filing a lawsuit. He also alleged that while in segregation, he
                was denied access to his family, was told by a case manager
                that his name did not appear on a roster of inmates at the
                institution, and was not informed of the status of the
                underlying investigation. He further alleged that prison staff
                destroyed his legal materials. Two staff members identified in
                the inmate’s complaint each denied the allegations during
                interviews with BOP. One of the staff members also told BOP
                that the inmate had been placed in the SHU for his own
                protection due to threats from other inmates. BOP interviewed
                the inmate, who consented to the interview but declined to
                complete and sign an affidavit. The inmate repeated his
                allegations but also acknowledged that he had been returned to
                the SHU for his own protection after receiving threats from
                other inmates. BOP’s investigation found that a threat
                assessment report had recommended that the inmate be
                transferred to another institution, but that the recommendation
                had been denied due to the short time left until the completion
                of the inmate’s sentence. BOP concluded there was insufficient
                evidence to substantiate the allegations and closed its
                investigation.


IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed or is conducting
several such reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.



Office of the Inspector General, U.S. Department of Justice            Page 10
   A. Review of the FBI’s Activities Under Section 702 of the Foreign
      Intelligence Surveillance Act Amendments Act of 2008

       In September 2012, the OIG issued a classified report examining the
FBI’s activities under Section 702 of the Foreign Intelligence Surveillance Act
(FISA) Amendments Act of 2008 (FAA). The FAA authorizes the targeting of
non-U.S. persons reasonably believed to be outside the United States for the
purpose of acquiring foreign intelligence information. As required by the FAA,
the OIG reviewed the number of disseminated FBI intelligence reports
containing a reference to a U.S. person identity, the number of U.S. person
identities subsequently disseminated in response to requests for identities not
referred to by name or title in the original reporting, the number of targets later
determined to be located in the United States, and whether communications of
such targets were reviewed. In addition, the OIG reviewed the FBI’s compliance
with the targeting and minimization procedures required under the FAA.

       The final report was delivered to the relevant Congressional oversight and
intelligence committees, as well as leadership offices. Because the report was
classified, its contents could not be disclosed to the public.

   B. Review of the Department’s Use of Material Witness Warrants

        The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. § 3144. Pursuant to the OIG’s responsibility under
Section 1001 of the Patriot Act, the OIG is investigating whether the
Department’s post-9/11 use of the statute in national security cases violated
civil rights and civil liberties. The OIG is also examining the Department’s
controls over the use of material witness warrants and trends in the use of
material witness warrants over time, as well as issues such as length of
detention, conditions of confinement, and access to counsel.

   C. Review of the FBI’s Use of National Security Letters, Section 215
      Orders, and Pen Register and Trap-and-Trace Authorities under FISA
      from 2007 through 2009

       The OIG is again examining the FBI’s use of national security letters
(NSLs) and Section 215 orders for business records. Among other issues, this
review is assessing the FBI’s progress in responding to the OIG’s
recommendations in its first and second reports on the FBI’s use of NSLs, and
in its report on the FBI’s use of exigent letters and other informal requests for
telephone records. A focus of this review is the NSL subsystem, an automated
workflow system for NSLs that all FBI field offices and Headquarters divisions
have been required to use since January 1, 2008, and the effectiveness of the
subsystem in reducing or eliminating noncompliance with applicable
authorities. The current review is also examining the number of NSLs issued
and Section 215 applications filed by the FBI between 2007 and 2009, and any



Office of the Inspector General, U.S. Department of Justice              Page 11
improper or illegal uses of these authorities. In addition, the review is
examining the FBI’s use of its pen register and trap-and-trace authority under
FISA.

   D. Audit of the FBI’s Management of Terrorist Watchlist Nominations
      and Encounters with Watchlisted Subjects

       The OIG is continuing its audit of the FBI’s management of terrorist
watchlist nominations and encounters with watchlisted subjects. In fiscal
years 2008 and 2009, the OIG conducted two audits related to the FBI terrorist
watchlist nomination practices. In these audits, the OIG found that the FBI’s
procedures for processing international terrorist nominations were, at times,
inconsistent and insufficient, causing watchlist data used by screening
agencies to be incomplete and outdated. The OIG found that the FBI failed to
nominate for watchlisting many subjects of its terrorism investigations, did not
nominate many others in a timely manner, and did not update or remove
watchlist records as required. As a result of these reviews, the FBI reported
that it had undertaken several initiatives and implemented new processes and
guidelines to enhance its watchlisting system.

       The current objectives of the OIG’s audit are to: (1) assess the impact of
recent events on the FBI’s watchlisting system, and (2) evaluate the
effectiveness of the initiatives recently implemented by the FBI to ensure the
accuracy, timeliness, and completeness of the FBI’s watchlisting practices,
including watchlist nominations, modifications, and removals.

   E. Audit of the FBI’s Foreign Terrorist Tracking Task Force

      As of December 31, 2012, the OIG was conducting an audit of the FBI’s
Foreign Terrorist Tracking Task Force (FTTTF). 5 The FTTTF was created in
October 2001 pursuant to Homeland Security Presidential Directive-2
(HSPD-2). According to HSPD-2, the FTTTF is to coordinate programs with
other federal agencies to: (1) deny entry into the United States of aliens
associated with, suspected of being engaged in, or supporting terrorist activity;
and (2) locate, detain, prosecute, or deport any such aliens already present in
the United States.

       The objectives of this audit are to determine whether the FBI: (1) has
implemented a viable FTTTF strategy to locate and track suspected terrorists
and their supporters, including coordination with FBI headquarters and field
offices to enhance national security investigations; and (2) is following
Department privacy policies in its management of information.


       5 This audit report was completed in March 2013. The results of the audit will be

described in our next Section 1001 report, which will cover the time period of January 1
through June 30, 2013.



Office of the Inspector General, U.S. Department of Justice                        Page 12
V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to include in this report “a description of
the use of funds appropriations used to carry out this subsection.”

       During this reporting period, the OIG spent approximately $823,975 in
personnel costs, $3,216 in travel costs, and $100 in miscellaneous costs, for a
total of $827,291 to implement its responsibilities under Section 1001. The
total personnel and miscellaneous costs reflect the time and funds spent by
OIG special agents, inspectors, and attorneys who have worked directly on
investigating Section 1001-related complaints, conducting special reviews, and
implementing the OIG’s responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice            Page 13
